         Office of Inspector General




September 22, 2005

LARRY JONES, SENIOR PLANT MANAGER
NORTHERN OHIO CUSTOMER SERVICE DISTRICT

SUBJECT:      Audit Report – Efficiency Review of the Canton, Ohio, Processing and
              Distribution Facility (Report Number NO-AR-05-013)

This report presents the results of our review of the Canton, Ohio, Processing and
Distribution Facility (Canton P&DF) in the Eastern Area (Project Number
05YG011NO000). We assessed the efficiency of operations performed at the Canton
P&DF. At management’s request, we also examined the proposed consolidation of the
outgoing mail processing operations in the Akron, Ohio, Processing and Distribution
Center (Akron P&DC). This is the third in a series of reports on mail processing
efficiency in the Northern Ohio Customer Service District. We conducted these audits in
cooperation with the Northern Ohio Customer Service District and the Eastern Area.

While the Canton P&DF has improved efficiency, further opportunities exist for
improvement. Specifically, the Canton P&DF underused its mail processing machines
and processed less mail per workhour than similar-sized facilities. The Postal Service
has a favorable business case for moving outgoing mail operations from the Canton
P&DF to the Akron P&DC. Specifically, consolidation would reduce labor and
distribution costs, increase processing efficiency, potentially improve delivery service,
and reduce workroom floor congestion. In addition, the Northern Ohio Customer
Service District may have more plants than necessary to process its current workload,
which further supports the proposed consolidation. Improving the Canton P&DF
efficiency and consolidating the network would reduce workhours by 202,000 and
potentially upgrade service. This workhour reduction could produce a cost avoidance of
approximately $64 million in labor savings over a 10-year period. We will report this
figure as funds put to better use in our Semiannual Report to Congress.

We made three recommendations in this report. Management agreed with our
findings, recommendations, and monetary impact and has initiatives in progress,
completed, or planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Alexander Lazaroff
    Kathleen Ainsworth
    Lauren Harkins
    Steven R. Phelps
Efficiency Review of the Canton, Ohio,                                    NO-AR-05-013
 Processing and Distribution Facility



                                TABLE OF CONTENTS

 Executive Summary                                                           i

 Part I

 Introduction                                                               1

     Background                                                             1
     Objective, Scope, and Methodology                                      3
     Prior Audit Coverage                                                   4

 Part II

 Audit Results                                                              5

     Assessment of Resources at the Canton P&DF                             5
     Recommendations                                                        7
     Management’s Comments                                                  7
     Evaluation of Management’s Comments                                    7

     Assessment of Consolidating the Canton P&DF’s Outgoing Mail
      Processing Operations                                                 8
     Recommendation                                                        14
     Management’s Comments                                                 14
     Evaluation of Management’s Comments                                   14

 Appendix A. Eastern Area Map                                              15
 Appendix B. Prior Audit Coverage                                          16
 Appendix C. Canton P&DF FYs 2002 and 2003 Actual and Target
             Productivity Levels and FY 2003 Potential Workhour
             Savings                                                       17
 Appendix D. FY 2003 Group Five Plants Percentage Performance
             Achievement                                                   18
 Appendix E. Canton P&DF Cost Avoidance (Funds Put to Better Use)          19
 Appendix F. FY 2003 Akron P&DC and Canton P&DF Mail Processing
             Capacity                                                      20
 Appendix G. Canton P&DF and Akron P&DC First Handling Pieces              21
             (For the 8-Week Period Saturday, October 2, 2004 -
             Friday, November 26, 2004)
 Appendix H. FYs 2003 and 2004 Akron P&DC Standby Time                     22
 Appendix I. Steubenville, Ohio, Main Post Office Overnight First-Class
             Mail Service Scores                                           23
Efficiency Review of the Canton, Ohio,                                     NO-AR-05-013
 Processing and Distribution Facility



 Appendix J. Youngstown, Ohio, P&DC PLANET CODE Scans
             (For the Periods May 4 - June 4, 2004, and
             June 14 - July 13, 2004)                                 24
 Appendix K. FY 2004 Productivity for Customer Service Districts With
             Six Plants                                               25
 Appendix L. Management’s Comments                                    26
Efficiency Review of the Canton, Ohio,                                                      NO-AR-05-013
 Processing and Distribution Facility


                                           EXECUTIVE SUMMARY
    Introduction                       The Office of Inspector General assessed the efficiency of
                                       mail processing operations at the Canton, Ohio, Processing
                                       and Distribution Facility (Canton P&DF) in the Eastern Area.
                                       This is the third in a series of efficiency audits covering the
                                       Northern Ohio Customer Service District. At management’s
                                       request, we also examined the proposed consolidation of
                                       outgoing mail processing operations at the Canton P&DF
                                       into the Akron, Ohio, Processing and Distribution Center
                                       (Akron P&DC).

    Results in Brief                   While the Canton P&DF has improved efficiency, further
                                       opportunities exist for improvement. Specifically, the
                                       Canton P&DF underused its mail processing machines and
                                       processed less mail per workhour than similar-sized
                                       facilities.1

                                       These conditions existed because management adjusted
                                       actual workhours to the number of hours allocated by the
                                       budget process. Management had not evaluated
                                       operational efficiency through benchmarking operations
                                       against similar-sized facilities, evaluating machine
                                       utilization, or analyzing trends.

                                       In addition, the Postal Service has a favorable business
                                       case for moving outgoing mail operations from the Canton
                                       P&DF to the Akron P&DC. Consolidation would reduce
                                       labor and transportation costs, increase processing
                                       efficiency, potentially improve delivery service, and reduce
                                       workroom floor congestion. In addition, the Northern Ohio
                                       Customer Service District may have more plants than
                                       necessary to process its current workload, which further
                                       supports the proposed consolidation. Management had
                                       delayed the consolidation pending an independent
                                       assessment.

                                       Consequently, the Canton P&DF used more resources than
                                       necessary to process its mail volume. Improving the
                                       Canton P&DF’s efficiency and consolidating the network
                                       would reduce workhours by 202,000 and potentially



1
    See Appendix D for a list of facilities with similar mail volumes to the Canton P&DF.




                                                                 i
Efficiency Review of the Canton, Ohio,                                           NO-AR-05-013
 Processing and Distribution Facility



                                upgrade service. This workhour reduction could produce a
                                cost avoidance of approximately $64 million in labor savings
                                over a 10-year period.

 Summary of                     We recommended the senior plant manager, Northern Ohio
 Recommendations                Customer Service District, reduce mail processing
                                operations at the Canton P&DF by 93,000 workhours. We
                                also recommended a reduction of 109,000 workhours by
                                consolidating the Canton P&DF outgoing mail operation into
                                the Akron P&DC.

 Summary of                     Management agreed with our findings, recommendations,
 Management’s                   and associated monetary impact. They agreed to reduce
 Comments                       workhours by 93,000 workhours over a 7-year period. They
                                also agreed to periodically review operations at the Canton
                                P&DF to evaluate operational efficiency to ensure efficient
                                operations. They also agreed to consolidate Canton
                                P&DF’s outgoing mail processing operations with a further
                                reduction in workhours of 109,000. Management’s
                                comments, in their entirety, are included in Appendix L of
                                this report.

 Overall Evaluation of          Management’s comments are responsive to the audit
 Management’s                   findings. The comments indicate management is taking a
 Comments                       proactive approach to the implementation of our
                                recommendations. Management’s actions taken or planned
                                should correct the issues identified in the report.




                                                  ii
Efficiency Review of the Canton, Ohio,                                                              NO-AR-05-013
 Processing and Distribution Facility


                                            INTRODUCTION
    Background                          The Postal Service has 308 facilities with mail processing
                                        operations. These facilities process First-Class Mail in the
                                        domestic network and are divided into seven groups2
                                        ranked according to mail volume outlined in the
                                        Breakthrough Productivity Initiative (BPI). The Postal
                                        Service established the BPI to drive excess costs out of the
                                        organization while creating continuous improvement. The
                                        initiative is focused on four areas: transportation,
                                        purchasing, overhead, and operations, which includes mail
                                        processing operations. Chart 1 below shows the number of
                                        mail processing facilities in each group. The Canton, Ohio,
                                        Processing and Distribution Facility (Canton P&DF) is a
                                        Group 5 facility.

                                                    Chart 1. Number of Facilities in Each Group



                                                                                                              Group 1
                                                                                                              Group 2
                                                                                                              Group 3
                                                                                                              Group 4
                                                                                                              Group 5
                                                                                                              Group 6
                                                                                                              Group 7

                                                                               GROUP 5 (Includes Canton P&DF)
                                                                               47 PLANTS



                                        The Postal Service is attempting to rightsize its domestic
                                        network in response to decreased mail volume. Despite a
                                        1-year increase in mail volume, the aggregate volume of
                                        First-Class Mail declined by nearly 5 percent, or 4 billion
                                        pieces, from fiscal years (FY) 1999 to 2004. In addition,
                                        the Postal Service projects that First-Class Mail volume
                                        will decrease by over one billion pieces during the next
                                        four fiscal years. Figure 1 shows these trends.




2
 In FY 2001, BPI Group 1 plants processed at least 3 billion mailpieces, while Group 7 plants processed no more
than 456 million mailpieces.




                                                        1
Efficiency Review of the Canton, Ohio,                                                                                  NO-AR-05-013
 Processing and Distribution Facility



                                                 Figure 1: First-Class Actual (FYs 1999-2004) and
                                                     Projected (FYs 2005-2008) Mail Volume


                                                                        106.00
                                                                        104.00




                                                    Volume (millions)
                                                                        102.00
                                                                        100.00
                                                                         98.00
                                                                         96.00
                                                                         94.00
                                                                         92.00
                                                                                 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008
                                                                                                    Fiscal Year

                                     Source: USPS Manager of Volume Analysis and Forecasting; USPS FY 2004 Annual Report


                                          The Transformation Plan states the Postal Service is
                                          committed to improving its operational efficiency by
                                          consolidating mail processing operations, when feasible. In
                                          addition, the President’s Commission3 recommended
                                          optimizing the facility network by closing unneeded
                                          processing centers.

                                          The Canton P&DF is a Group Five facility in the Eastern
                                          Area (see Appendix A for a map of the Eastern Area). The
                                          Canton P&DF processes inbound4 and outbound mail5 for
                                          Canton, Ohio, and associate offices in the surrounding area.
                                          In FY 2003, the Canton P&DF processed approximately
                                          661 million mailpieces, a 1.6 percent decrease from
                                          FY 2002. In FY 2003, the Canton P&DF’s outgoing mail
                                          operations accounted for approximately 38 percent of its
                                          total mail volume. The Canton P&DF used approximately
                                          13 percent of its total mail processing workhours to process
                                          this mail. The facility has 281 career employees and
                                          8 casual6 employees.




3
  The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.
4
  Mail received by a Postal Service facility, most commonly for distribution and delivery within the delivery area of the
receiving facility.
5
  Outbound or outgoing mail is sorted within a mail processing center and dispatched to another facility for additional
processing and delivery.
6
  Casual employees may be used as a limited-term supplemental workforce, but may not be employed in place of full
or part-time employees.




                                                                            2
Efficiency Review of the Canton, Ohio,                                                               NO-AR-05-013
 Processing and Distribution Facility




    Objective, Scope, and              We assessed the efficiency of operations at the Canton
    Methodology                        P&DF and the proposed consolidation of the Canton P&DF’s
                                       outgoing mail operation. In our analysis, we used FY 2003
                                       as the base year to maintain consistency with our prior
                                       efficiency audits of the Mansfield, Ohio, Post Office and the
                                       Akron, Ohio, Processing and Distribution Center (Akron
                                       P&DC).7 To assess efficiency, we observed mail processing
                                       operations; analyzed mail volumes, workhours, and machine
                                       use; interviewed Postal Service officials; and benchmarked
                                       achievement of target productivity with similar-sized facilities.
                                       We also reviewed applicable Postal Service handbooks and
                                       regulations, including Handbook M-32, Management
                                       Operating Data Systems (April 2000), applicable Postal
                                       Bulletins, and Title 39, United States Code (U.S.C.).

                                       At management’s request, we also examined the proposed
                                       consolidation of the outgoing mail processing operations
                                       of the Canton P&DF into the Akron P&DC. We examined the
                                       potential consolidation from the perspective of transportation,
                                       delivery service, and capacity. We reviewed applicable
                                       network change guidelines, including Handbook PO-408,
                                       Area Mail Processing (AMP) Guidelines, April 1995.

                                       We relied on Postal Service data systems, including the
                                       Origin Destination Information System, the National
                                       Workhour Reporting System, the BPI Web site, the
                                       Management Operating Data System, Web Flash Reports,
                                       the Web Enterprise Information System, and the Web End-
                                       of-Run System to analyze mail volume and workhours. We
                                       checked the accuracy of data by confirming our analysis and
                                       results with Postal Service managers and found no material
                                       differences.

                                       This audit was conducted from December 2004 through
                                       September 2005, in accordance with generally accepted
                                       government auditing standards and included such tests
                                       of internal controls as were considered necessary under
                                       the circumstances. We discussed our observations and
                                       conclusions with management officials and included their
                                       comments where appropriate.


7
 These three locations are in the Northern Ohio Customer Service District and will be directly affected by proposed
consolidations. Additionally, we used the same base year of FY 2003 to evaluate all three sites to determine whether
adequate capacity existed at the Akron P&DC.




                                                        3
Efficiency Review of the Canton, Ohio,                                            NO-AR-05-013
 Processing and Distribution Facility


   Prior Audit Coverage             We have issued 16 audit reports on operational efficiency.
                                    As a result of these audits, the Postal Service has agreed
                                    to reduce workhours by 984,182. These reductions could
                                    produce a cost avoidance of about $311 million over
                                    10 years. (See Appendix B for details.)




                                                 4
Efficiency Review of the Canton, Ohio,                                                            NO-AR-05-013
 Processing and Distribution Facility



                                               AUDIT RESULTS
      Assessment of                   Resources at the Canton P&DF could be used more
      Resources at the                efficiently. Specifically, the Canton P&DF:
      Canton P&DF
                                           •   Underused its mail processing machines.

                                           •   Processed less mail per workhour than similar-sized
                                               facilities.

                                      Title 39, U.S.C. Chapter 4, Section 403 (a) states, “The
                                      Postal Service shall plan, develop, promote, and provide
                                      adequate and efficient postal services . . . .”

                                      Although efficiency had improved,8 Postal Service managers
                                      had not evaluated operational efficiency through
                                      benchmarking operations against similar-sized facilities,
                                      evaluating machine utilization, or analyzing trends.
                                      Consequently, the Canton P&DF used more workhours than
                                      necessary to process its mail volume.

      Mail Processing                 The Canton P&DF’s mail processing machines were not
      Machines                        being fully used based on a comparison of machine
                                      performance to established targets. The Canton P&DF had
                                      not achieved target productivity levels for FYs 2002 and
                                      2003 for any of its automated mail processing operations.
                                      (See Appendix C.) Target productivity levels are based on
                                      total pieces of mail that could be processed for each
                                      workhour of an operation. In FY 2002, the Canton P&DF
                                      achieved 59 percent of its overall target productivity levels.
                                      That number slipped to 57 percent in FY 2003. (See
                                      Appendix D.)

                                      Achieving established productivity levels could reduce
                                      workhours. For example, the mail processing barcode
                                      sorting operation achieved 38 percent of its national target
                                      level in FY 2003. If this operation achieved 75 percent of
                                      the national target level, the Canton P&DF could save over
                                      23,000 processing workhours. By achieving 73 percent of
                                      target productivity in all operations, the Canton P&DF could
                                      reduce workhours by over 93,000. This will result in an


8
    The Canton P&DF reduced mail processing (Function 1) workhours by over 37,000 from FYs 2002 to 2003.




                                                        5
Efficiency Review of the Canton, Ohio,                                                   NO-AR-05-013
 Processing and Distribution Facility



                                  associated economic impact of almost $33 million over
                                  10 years. (See Appendix E.)

   Comparison to                  Canton P&DF is generally less efficient than similar-sized
   Similar-sized Facilities       facilities.

                                         •   In FY 2003, the Canton P&DF achieved 57 percent
                                             BPI target productivity. This was 16 percentage
                                             points below the 73 percent average for similar-sized
                                             facilities. (See Appendix D for a chart comparing the
                                             Canton P&DF’s target productivity levels with similar-
                                             sized facilities for FY 2003.)

                                         •   In addition, 44 out of 47 similar-sized facilities, or
                                             94 percent, came closer than the Canton P&DF to
                                             achieving their target productivity goals in FY 2003.
                                             Also, 40 of these similar-sized facilities are operating
                                             at 65 percent of target productivity or better.

   Cause and Impact on            Management of the Canton P&DF had addressed
   Operations                     operational efficiency by reducing workhours from prior year
                                  usage. As a result, they reduced FY 2003 workhours by
                                  8 percent from FY 2002, while volume decreased by
                                  1.6 percent. However, Postal Service managers did not
                                  evaluate operational efficiency by comprehensively
                                  benchmarking operations against similar-sized facilities,
                                  evaluating machine utilization, or analyzing trends.

                                  In addition, observations at the Canton P&DF showed that
                                  employee productivity could be improved. For example, we
                                  found:

                                         •   Excessive idle time at many operations because of
                                             insufficient workload.

                                         •   Excess handling of mail because of insufficient work
                                             space.

                                         •   The current configuration and lack of space in the
                                             Delivery Bar Code Sorter area did not allow for
                                             additional tray racks. More tray racks would enable
                                             additional multiple zones to be run concurrently,
                                             which would increase productivity.




                                                     6
Efficiency Review of the Canton, Ohio,                                                NO-AR-05-013
 Processing and Distribution Facility


                                  Consequently, the Canton P&DF was using more workhours
                                  than necessary to process its mail volume.

   Recommendations                To improve efficiency, we recommend the senior plant
                                  manager, Northern Ohio Customer Service District:

                                         1. Reduce 93,000 workhours at the Canton Processing
                                            and Distribution Facility by the end of FY 2012; this
                                            will result in an associated economic impact of almost
                                            $33 million over 10 years.

                                         2. Evaluate operating efficiency and staffing at the
                                            Canton Processing and Distribution Facility to
                                            determine whether further workhour adjustments are
                                            necessary based on workload.


   Management’s                   Management agreed with our finding, recommendations,
   Comments                       and associated monetary impact. They agreed to reduce
                                  workhours by 93,000 workhours over a 7-year period. They
                                  also agreed to periodically review operations at the Canton
                                  P&DF to evaluate operational efficiency to ensure efficient
                                  operations.

   Evaluation of                  Management’s comments are responsive to the audit
   Management’s                   finding. The comments indicate management is taking a
   Comments                       proactive approach to the implementation of our
                                  recommendations. Management’s actions taken or planned
                                  should correct the issues identified in the finding.




                                                    7
Efficiency Review of the Canton, Ohio,                                                                 NO-AR-05-013
 Processing and Distribution Facility




    Assessment of                    The Postal Service realized that excess processing capacity
    Consolidating the                exists within the domestic mail processing network of the
    Canton P&DF’s                    Northern Ohio Customer Service District. To better use this
    Outgoing Mail                    capacity, the Postal Service is considering consolidating the
    Operations                       Canton P&DF’s outgoing operations into the Akron P&DC.
                                     The Postal Service requested that the Office of Inspector
                                     General independently examine the proposed consolidation
                                     of outgoing mail.

                                     We concluded the Postal Service has a favorable business
                                     case9 to move outgoing mail operations from the Canton
                                     P&DF to the Akron P&DC. Consolidation would reduce
                                     labor and transportation costs, increase processing
                                     efficiency, potentially improve delivery service, and reduce
                                     workroom floor congestion. We also found that the Northern
                                     Ohio Customer Service District may have more plants than
                                     necessary to process current workloads.

                                     Title 39, U.S.C. Chapter 4, Section 403 (a) states, “The
                                     Postal Service shall plan, develop, promote, and provide
                                     adequate and efficient postal services . . . .” Further,
                                     Handbook PO-408 sets forth guidelines to make changes to
                                     the processing network.10

                                     Because of the sensitive and public nature of
                                     consolidations,11 management has not implemented the
                                     proposed Canton P&DF consolidation. Management
                                     wanted an independent review to assess the possible
                                     effects of the consolidation. As a result of not consolidating
                                     Canton P&DF’s outgoing operations, the Northern Ohio
                                     Customer Service District used more resources than
                                     necessary to process its mail volume.

    Labor and                        The Postal Service has a favorable business case to
    Transportation Costs             transfer outgoing operations from the Canton P&DF. Under
                                     the plan, the Canton P&DF would transfer about 251 million

9
 A favorable business case is defined as actions that improve the economics and operational efficiency of the Postal
Service.
10
   Handbook PO-408 provides a framework for changes to the mail processing network; states that changes should
support the Postal Service’s strategic objectives and make optimum use of available resources; and establishes
management’s accountability for making decisions about area mail processing facilities.
11
   Many communities and labor unions oppose consolidation for fear of job loss, loss of community identification with
the Postal Service’s postmark, and possible negative effects on local businesses. This opposition, as with the
proposed Mansfield Post Office consolidation, sometimes results in public protest and requests for congressional
intervention.




                                                         8
Efficiency Review of the Canton, Ohio,                                                          NO-AR-05-013
 Processing and Distribution Facility


                                   pieces, or 38 percent of its mail, to the Akron P&DC.
                                   This would allow the Canton P&DF to reduce its total
                                   workhours by an additional 109,000. More specifically, the
                                   Canton P&DF could reduce:

                                         •   85,000 craft workhours.12

                                         •   6,000 supervisor mail processing workhours.

                                         •   12,000 in-plant support workhours (8,000 supervisor
                                             and 4,000 clerk workhours).

                                         •   6,000 maintenance workhours, since some of the
                                             machines would be relocated, eliminating the need
                                             for associated maintenance.13

                                   In addition, the Canton P&DF could reduce transportation
                                   costs of $26,000 a year by changing or eliminating routes.14

                                   The economic impact of these reductions could produce a
                                   cost avoidance of over $30 million over 10 years. (See
                                   Appendix E for details.)

                                   Management stated workhour savings could be
                                   accomplished through attrition.15 Under the proposed
                                   consolidation plan, no Canton P&DF career craft employees
                                   would lose their jobs. Management stated they will follow
                                   appropriate contract provisions for career, transitional, and
                                   casual employees.

 Mail Processing                   Consolidating the Canton P&DF’s outgoing mail operations
 Efficiency                        into the Akron P&DC would be more efficient. Specifically,
                                   the consolidation would allow the Akron P&DC to use
                                   excess capacity, take advantage of more efficient and




12
   The Akron P&DC would need approximately 20,800 workhours to process this workload, based on the AMP Plan.
Our recommendation of 85,000 workhours accounts for these additional hours as well as the 28,000 workhour
savings in FY 2004. These workhour savings should allow the Canton P&DF to achieve 74 percent of overall BPI
targets.
13
   Maintenance workhours would not materially increase at the Akron P&DC. The Akron P&DC would receive only
two additional Advanced Facer Canceler Systems, and these would require minimum preventive maintenance.
14
   Some savings are associated with transportation if consolidation occurs; however, we did not consider them
material to the audit.
15
   By FY 2012, 152 mail processing (Function 1) employees at the Canton P&DF will be eligible to retire. This
equates to approximately 274,000 workhours.




                                                      9
Efficiency Review of the Canton, Ohio,                                                                     NO-AR-05-013
 Processing and Distribution Facility



                                       economical mail processing capabilities, and reduce the
                                       standby time16 hours.

                                       We found the Akron P&DC has excess capacity. During
                                       FY 2003, the Akron P&DC processed over 1.2 billion
                                       mailpieces and has the capacity to process more than
                                       500 million additional mailpieces per year. The Canton
                                       P&DF’s outgoing mail operations accounted for more than
                                       251 million (38 percent) of its total mailpieces processed in
                                       FY 2004. This shows that the Akron P&DC can readily
                                       process Canton P&DF’s outgoing mail. Appendix F shows
                                       the Akron P&DC’s and Canton P&DF’s mail processing
                                       capacities.

                                       We also found that increases in mail volume improve
                                       productivity at the Akron P&DC. For example, on Saturday,
                                       the Akron P&DC already processes all outgoing mail for the
                                       Canton P&DF and three other facilities with no increase in
                                       workhours. This is a 52 percent increase in productivity
                                       compared to the Akron P&DC’s weekday average. For
                                       example, the Akron P&DC processes 1,008 first handling
                                       pieces (FHP)17 per workhour on Saturday, compared to the
                                       average 652 FHP per workhour it processes Monday
                                       through Friday. Appendix G displays the Saturday
                                       productivity increases at the Akron P&DC.

 Standby Time                          Processing the Canton P&DF’s outgoing mail can reduce
                                       the Akron P&DC’s standby time by having more mail to
                                       process. In FY 2004, the Akron P&DC used an average of
                                       452 hours of standby time per accounting period.18 (See
                                       Appendix H.)

 Delivery Service                      Delivery service would potentially improve for areas serviced
                                       by both the Canton P&DF and the Akron P&DC by modifying
                                       the service area and transportation network. Table 1
                                       illustrates the Akron P&DC’s and the Canton P&DF’s current
                                       delivery service standards and the impact the proposed
                                       consolidations would have on delivery service.19 Table 1
16
   Handbook M-32 states that standby time is used for personnel in mail processing, customer services, and delivery
services who cannot be gainfully employed.
17
   FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.
18
   In prior observations at the Akron P&DC, we found that many employees were not engaged in productive work
because of sporadic mail volume.
19
   This anticipated improved delivery service is a result of the more effective transportation network that exists at the
Akron P&DC.




                                                            10
Efficiency Review of the Canton, Ohio,                                                                   NO-AR-05-013
 Processing and Distribution Facility


                                    shows six site combinations which would potentially change
                                    from two-day to overnight service.

                                                     Table 1. Delivery Service Standards

                                                          Akron, Ohio, P&DC                  Canton, Ohio, P&DF

                                                      Current         Proposed          Current          Proposed
                                      Ohio Service           Two-               Two-           Two-               Two-
                                                   Overnight        Overnight        Overnight        Overnight
                                         Area                Day                Day            Day                Day

                                      Akron           X                X                 X                X
                                      Canton          X                X                 X                X
                                      Cleveland       X                X                 X                X
                                      Columbus                  X      X                          X       X
                                      Lima                      X      X                          X       X
                                      Steubenville    X                X                 X                X
                                      Toledo                    X      X                          X       X
                                      Youngstown      X                X                 X                X

                                    Note: Service benefit gained if consolidation of Mansfield, Ohio, Main Post
                                    Office’s outgoing mail volume is implemented.
                                    Source: Canton P&DF AMP

                                    The Northern Ohio Customer Service District has previously
                                    realized service improvements as a result of prior
                                    consolidations. For example, the Steubenville, Ohio, Main
                                    Post Office consolidation20 resulted in improved delivery
                                    service. Specifically:

                                         •     Postal Service testing in the Origin Destination
                                               Information System from FY 2003 through June 2005
                                               indicates that service improved for the customers in
                                               the Steubenville, Ohio, Main Post Office service area.
                                               The average overnight First-Class Mail delivery score
                                               increased from 95 to 96 percent. (See Appendix I.)




20
 The Steubenville, Ohio, Main Post Office’s outgoing mail operations consolidated into the Youngstown, Ohio,
P&DC.




                                                          11
Efficiency Review of the Canton, Ohio,                                                          NO-AR-05-013
 Processing and Distribution Facility



                                         •   Postal Service testing after the consolidation showed
                                             that 99 percent of First-Class Mail met delivery
                                             service standards. (See Appendix I.) Appendix J
                                             shows high delivery service scores of the internal
                                             Postal Service testing of First-Class Mail.

                                  Based on this data, we concluded that delivery service
                                  improved after the consolidation. In our opinion, this could
                                  also potentially occur if the Canton P&DF’s outgoing mail
                                  operations were moved to the Akron P&DC.

 Workroom Floor Space             By moving the Canton P&DF’s outgoing operation to the
                                  Akron P&DC workroom floor, congestion would be reduced
                                  or possibly eliminated. We found crowded conditions
                                  throughout the Canton P&DF facility, including the dock,
                                  staging areas, and various work stations. The Canton P&DF
                                  cannot concurrently and efficiently process both inbound
                                  and outbound mail volumes. Illustration 1 shows the
                                  congested floor space. This congestion results in additional
                                  workhours, since mail containers often receive numerous
                                  handlings and numerous set-ups are required to
                                  accommodate the processing of both inbound and outbound
                                  mail.
                                                          Illustration 1




                                  Congested floor space during tour transition between incoming and outgoing
                                  operations (February 2, 2005, 9:30 p.m.).




                                                     12
Efficiency Review of the Canton, Ohio,                                                               NO-AR-05-013
 Processing and Distribution Facility



 Northern Ohio Customer              When compared to other districts with six plants, the
 Service District Plants             Northern Ohio Customer Service District had the lowest
                                     productivity,21 which indicates that this customer service
                                     district has more plants than necessary to process its
                                     workload. (See Appendix K.) In addition, as shown in
                                     Table 2, these plants are located in close proximity
                                     (within 100 miles) to the Akron P&DC, which facilitates
                                     consolidation efforts.22

                                           Table 2. Distances Between Plants in District
                                          Facility Name     Distance From Akron Plant
                                      Akron P&DC              0 miles
                                      Canton P&DF           20 miles
                                      Mansfield Main Post   62 miles
                                      Office
                                      Cleveland P&DC        37 miles
                                      Youngstown P&DC       49 miles
                                      Steubenville Main     83 miles
                                      Post Office
                                     Note: The Steubenville Main Post Office was consolidated into the Youngstown
                                     P&DC in March 2004.
                                     Source: MapQuest

                                     Further, at the state level, the Northern Ohio Customer
                                     Service District has one plant for every 2,500 square miles,
                                     compared to the rest of Ohio, which has a plant for every
                                     5,000 square miles. The rest of Ohio includes the two major
                                     metropoltan areas of Columbus and Cincinnati, and has a
                                     larger population base than the Northern Ohio Customer
                                     Service District, which contains one major metropolian area,
                                     Cleveland. The Northern Ohio Customer Service District
                                     also processes four billion fewer mailpieces per year than
                                     the other six Ohio plants.23 This indicates that the Northern
                                     Ohio Service District may have excess plants.




21
   Productivity is based on total pieces handled per workhour.
22
   The close proximity of the Northern Ohio Customer Service plants minimizes transportation changes and maintains
the operational window of time necessary to process mail to meet service standards.
23
   The Northern Ohio Customer Service District serves a population of 3.7 million and has 6 processing plants, a
territory of 15,000 square miles, and an annual volume of 6 billion mailpieces. The rest of Ohio serves a population
of 11.2 million and has 6 processing plants, a territory of 30,000 square miles, and an annual volume of 10 billion
mailpieces.




                                                         13
Efficiency Review of the Canton, Ohio,                                            NO-AR-05-013
 Processing and Distribution Facility



 Reason and Impact of             Because of the sensitive and public nature of consolidations,
 Consolidation                    management has not implemented the proposed Canton
                                  P&DF consolidation. Management wanted an independent
                                  review to assess the possible effects of the consolidation.
                                  As a result of not consolidating Canton P&DF’s outgoing
                                  operations, the Northern Ohio Customer Service District
                                  used more resources than necessary to process its mail
                                  volume.

 Recommendation                   We recommend the senior plant manager, Northern Ohio
                                  Customer Service District:

                                     3. Consolidate outgoing mail operations into the Akron
                                        Processing and Distribution Center, resulting in an
                                        additional 109,000 workhour reduction at the Canton
                                        Processing and Distribution Facility. The economic
                                        impact of this workhour reduction is more than
                                        $30 million over 10 years.

 Management’s                     Management agreed with our finding, recommendation, and
 Comments                         associated monetary impact. Management agreed to
                                  consolidate Canton P&DF’s outgoing mail processing
                                  operations with a further reduction in workhours of 109,000.

 Evaluation of                    Management’s comments are responsive to the audit
 Management’s                     finding. The comments indicate management is taking a
 Comments                         proactive approach to the implementation of our
                                  recommendation. Management’s actions taken or planned
                                  should correct the issues identified in the finding.




                                                14
Efficiency Review of the Canton, Ohio,                                                                                                                                                                                                                       NO-05-AR-013
 Processing and Distribution Facility


                                                                                                               APPENDIX A

                                                                                                EASTERN AREA MAP
                                                                                                Erie
   Eastern AreaNorthern Ohio                                                             155,157-168
                                                                                                                                           ERIE                          167
                                                                                                                                                                                         169
                                                                                                                                                                                                             188

                                                                                                                                                                                                              Wilkes-Barre
                                                                                                                                                                                                                             Scranton

                                                                                                                                                                                                                             184-5
                                                                                                                                                                                                                                                         Central PA
                                                                                                                                                                                                                                                   169-176,177-179, 182,
                                                                                                                                                                                                                                                     184-188, 195-196
                                                                                                                                       164-5                                                                  186-7
                                                                                                                                                                                       Williamsport                              183
                                                                     439, 440-449
                                                                                                                                                    163
                                                                                                                      CLEVELAND
                                                                                                                     440-1                New
                                                                                                                                                                     158
                                                                                                                                                                                               177
                                                                                                                                                                                                       178
                                                                                                                                                                                                                      182
                                                                                                                                                                                                                                 180-1                      Philadelphia
                                                                                                                                                                                                                               Lehigh Valley
                                                                          Toledo                                                         Castle                                    168
                                                                      434-6
                                                                                                                           Youngstown                      162                                                  179
                                                                                                                                                                                                                 Reading                189                    Metro
                    Columbus                                                               448-9
                                                                                                            AKRON
                                                                                                            442-3             444-5
                                                                                                                                        161       160
                                                                                                                                                                   157
                                                                                                                                                                             Altoona        HARRISBURG                195-6
                                                                                                                                                                                                                                 194                        180-1, 183, 189-194




                                                                                                                                                                                                                                            2
                                                                                                                                                                                               170-1                                             PHILADELPHIA
             430-433,437-438,456-457




                                                                                                                                                                                                                                          0-
                                                                                         Mansfield




                                                                                                                                                                                                                                        19
                                                                                                                                                                                                                      Southeastern
                                                                   458                                         Canton                                                          166
                                                                   Lima                                                446-7                 PITTSBURGH                Johnstown
                                                                                                                                                                                                             LANCASTER
                                                                                                                                                                                                                              193               SOUTH
                                                                                                                                           150-2            156        159                                                                      JERSEY
                                                                                    433                                     Steubenville                      Greensburg                  172         173-6
                                                                                                                                                                                                                                          080-1,3




                                                                                                                                                                                                                                                       ,4
                                                                                                                                 439                                                                                  197-8




                                                                                                                                                                                                                                                    082
                                                                                                             Zanesville                       153          154         155                                          Wilmington
                                                                                                                                        Wheeling
                                                                                                                                       260                                           254                                             199
                                                                    453-5                                     437-8
                                                                                        COLUMBUS                                                  265
                                                                                         430-2                                                                               267
                                                                   Dayton

        Cincinnati                                                                                             457
                                                                                                                                       Clarksburg

                                                                                                                                         263-4                                                    Pittsburgh
                                                                                                                           261                                       268
       410, 434-436,450-                                                  CINCINNATI         Chillicothe                                                                                         150-154,156, 260
        455,458-459,470                                     470
                                                                            450-2               456                        250-3         266
                                                                                                                                                        262
                                                                                                                                                                                                                                                  South Jersey
                                                                                                                       CHARLESTON                                                                                                                    080-084,197-199
                                                                      410
                                                                                            Ashland
                                                                                                                                                                                                      Appalachian
                                                                                                            Huntington                               249                                        240-243, 245-259, 261-268
                                                                                                 411-2       255-7
                                               471
                                                                                                                                   258-9                                       Lynchburg
                        476-7                         LOUISVILLE             Lexington
                       Evansville
                                                         400-2
                                                                          403-6
                                                                                          413-4          415-6
                                                                                                                             247-8
                                                                                                                           Bluefield                                         245                                                                         Greensboro
                                                                                                                                                           Roanoke
                                                                                                                                                           240-1
                                                                                                                                                                                                                                                            270-279, 286
                                                                                                                           246
                                    423               427                                        417-8                                                                                                                            279
                        424                                                                                                              243
                                                                                       London
                                                                                                              242                                                                                               278
                                                                     425-6             407-9
                                            Bowling                                                        Bristol                                                                                               Rocky
                                             Green                                                                                                               GREENSBORO
                                                                                                                                                                                            275-7
                                                                                                                                                                                            Raleigh              Mount
                                    421-2
             Paducah
                                                                                                                                        286
              420                                                                                                                          Hickory                     270-4
                                                                                                                                                                                                                   Kinston

                                                                                                              Asheville
                                                                                                                                                      CHARLOTTE
                                                                                                                                                                                       Fayetteville
                                                                                                                                                                                                                       285                               Mid-Carolinas
                                                                                                                                             280-2
                                                                                                      287-9                                                                                283
                                                                                                                                                                                                                                                         280-285, 287-289, 297
                                                                                                                                                     297
                              Kentuckiana                                                                            296
                                                                                                              Greenville
                                                                                                                                   293                                                                  284

                 400-409,411-418,420-427,471,476-477                                                                                                                                 295
                                                                                                                                                        290-2                          Florence
                                                                                                                                                                                                                                                                District & P&DC
                                                                                                                                                      COLUMBIA
                                                                                                                                                                                                                                                                P&DC/P&DF/CSF

                            Greater South Carolina                                                                                                                                                                                                              L&DC
                                                       290-296                                                                                                                                                                                                  BMC
                                                                                                                                                                           294
                                                                                                                                                                                                                                                                AMC/AMF
                                                                                                                                                                     Charleston
                                                                                                                                                                                                                                                                REC

 11/14/03




                                                                                                                                                              15
     Efficiency Review of the Canton, Ohio,                                             NO-AR-05-013
      Processing and Distribution Facility



                                                   APPENDIX B

                                              PRIOR AUDIT COVERAGE


                                                 Report              Issue       Workhour    Monetary
                     Audit                       Number               Date       Savings      Impact
San Francisco, CA ISC AMRU                      NO-AR-05-012        9/06/2005        7,757     $2.6 million
Los Angeles, CA ISC24                           NO-AR-05-011        6/17/2005       85,000    $26.1 million
Los Angeles, CA ISC AMRU25                      NO-AR-05-010        4/28/2005        5,450     $1.8 million
Akron, OH P&DC26                                NO-AR-05-009        3/30/2005      235,000      $74 million
Mansfield, OH Main Post Office                  NO-AR-05-004        12/08/2004      52,000    $17.2 million
New York ISC                                    NO-AR-04-009         9/24/2004     320,000      $98 million
New York ISC AMRU                               NO-AR-04-011        9/24/2004       30,000     $9.3 million
San Francisco, CA ISC and GSA27 Facility        NO-AR-04-006        3/31/2004      120,000    $44.2 million
Oakland, CA ISC and Regatta Facility            NO-AR-04-007        3/31/2004       25,000     $8.8 million
Springfield, VA BMEU28                          NO-AR-04-004        2/09/2004        2,775       $969,893
Columbia, MD BMEU                               NO-AR-04-002        12/26/2003       3,960     $1.4 million
Southern MD BMEU                                NO-AR-04-001        12/24/2003      20,240     $8.4 million
San Francisco, CA BMEU                          AO-AR-03-002        9/25/2003       18,000     $6.9 million
Los Angeles, CA BMEU                            AO-AR-03-001        7/31/2003       28,000     $9.3 million
Seattle, Minneapolis, and Des Moines BMEU       CQ-AR-03-001        3/28/2003       15,053       $588,730
Colorado/Wyoming Performance Cluster BMEU       CQ-AR-02-001        9/26/2002       15,947       $1 million
Total Savings                                                                      984,182    $311 million




     24
        International Service Center.
     25
        Air Mail Records Unit.
     26
        Processing and Distribution Center.
     27
        General Services Administration.
     28
        Business Mail Entry Unit.




                                                               16
Efficiency Review of the Canton, Ohio,                                                 NO-AR-05-013
 Processing and Distribution Facility



                                                                  APPENDIX C

                CANTON P&DF FYS 2002 AND 2003 ACTUAL AND TARGET PRODUCTIVITY LEVELS
                              AND FY 2003 POTENTIAL WORKHOUR SAVINGS



                                                                (TPH per                             FY 2003          Potential
                                               Productivity                      Achieved Percent
                             FY 2003                            Workhour)                         Workhours at        Workhour
  Major Operations                                                                   of Target
                            Workhours                                                             100 Percent of     Savings at
                                                                                 (TPH/Workhour)
                                                                         BPI                        BPI Target     100 Percent BPI
                                                FY 2002       FY 2003
                                                                        Target
Flat Sorting Machine
                                9,040              447         365       562            65%            5,871            3,169
1000
Automated Flat Sorting
Machine 100                    26,936             1,809        1,965    2,113           93%           25,049            1,887

Delivery Barcode
                               32,061             8,086        9,673    10,634          91%           29,164            2,897
Sorter
Multi Line Optical
                               10,424             8,139        7,660    8,372           91%            9,538            886
Character Reader
Mail Processing
                               47,248             4,566        3,636    9,448           38%           18,182           29,066
Barcode Sorter
Advanced Facer
                                4,788            15,913       14,726    20,890          70%            3,375            1,413
Canceler

Source: Breakthrough Productivity Initiative (BPI) Web site




                                                                                  17
                                                                                                                                                                 Percent Performance Achieved




                                                                                                                                                            0%
                                                                                                                                                                 20%
                                                                                                                                                                         40%
                                                                                                                                                                                60%
                                                                                                                                                                                                    80%
                                                                                                                                                                                                                                  100%
                                                                                                                                                                                                                                         120%
                                                                                                                                              MID-HUDSON PDC

                                                                                                                                         WHITE RIVER JUNC PDC

                                                                                                                                                  CANTON PDF




                                                                                                                                                                                      57%.
                                                                                                                                             CHARLESTON PDC

                                                                                                                                               SCRANTON PDF




     Source: BPI Web page
                                                                                                                                                    KCKS PDC

                                                                                                                                               FREDERICK PDF

                                                                                                                                            ROCKY MOUNT PDF

                                                                                                                                                 READING PDF
                                                                                                                                                                                                                                                                                                   Processing and Distribution Facility
                                                                                                                                                                                                                                                                                                  Efficiency Review of the Canton, Ohio,




                                                                                                                                                SAGINAW PDC

                                                                                                                                               CHAMPAIGN PDF

                                                                                                                                            YOUNGSTOWN PDF

                                                                                                                                              EVANSVILLE PDF

                                                                                                                                             DAYTONA BCH PDF

                                                                                                                                                SAVANNAH PDF

                                                                                                                                              HUNTSVILLE PDF

                                                                                                                                                 EUGENE PDF
                                                                                                                                                                                      ACHIEVEMENT TO BREAKTHROUGH




                                                                                                                                                   FARGO PO

                                                                                                                                         CHARLOTTESVILLE PDF

                                                                                                                                              EAST TEXAS PDC
                                                                                                                                                                                      GROUP 5 AVERAGE IS 71.8% PERFORMANCE




                                                                                                                                                    FLINT PDC
                                                                                                                                                                                      RANKED 45TH OUT OF 47 GROUP 5 PLANTS AT
                                                                                                                                                                                      PRODUCTIVITY INITIATIVE TARGET. CANTON IS




                                                                                                                                                 TOPEKA PDF

                                                                                                                                               ASHEVILLE PDF

                                                                                                                                                  MOBILE PDC

                                                                                                                                                  BILLINGS PO

                                                                                                                                                    GARY PDC

                                                                                                                                               GREEN BAY PDC

                                                                                                                                                  PEORIA PDF
                                                                                                                                                                                                                                                                                     APPENDIX D




                                                                                                                                                 EL PASO PDC

                                                                                                                                               SIOUX FALLS PO

                                                                                                                                               ROCKFORD PDC




18
                                                                                                                                              PENSACOLA PDC

                                                                                                                                                LAKELAND PDC

                                                                                                                                             BAKERSFIELD PDC

                                                                                                                                                   ATHENS PO

                                                                                                                                             CHARLESTON PDF
                                                                                                                                                                                                                                                      FY 2003 GROUP FIVE PLANTS




                                                                                                                                              GAINESVILLE PDF
                                                                                                                                                                                                                                                                                                                       NO-AR-05-013




                                                                                                                                             COLUMBIA MO PDF

                                                                                                                                                 WAUSAU PDF

                                                                                                                                              QUAD CITIES PDF

                                                                                                                                                   SALEM PDF
                                                                                                                                                                                                                                                PERCENTAGE PERFORMANCE ACHIEVEMENT




                                                                                                                                                 LINCOLN PDF

                                                                                                                                            STATEN ISLAND PDF

                                                                                                                                                 OXNARD PDF

                                                                                                                                              SAINT CLOUD PO

                                                                                                                                                FT WAYNE PDC

                                                                                                                                                 AUGUSTA PDF
     Note: The BPI was established by the Postal Service to drive costs out of the organization while creating continuous improvement.
Efficiency Review of the Canton, Ohio,                                                  NO-AR-05-013
 Processing and Distribution Facility



                                                         APPENDIX E

                                   CANTON P&DF COST AVOIDANCE
                                    (FUNDS PUT TO BETTER USE)



     Recommended Action                                               Time Frame: Ten Fiscal Years
            and                               Workhour
      Employee Category                       Reduction                                  Discounted
          Impacted                                                Undiscounted            Savings
                                                                    Savings             (Net Present
                                                                                           Value)
 Efficiency improvement:                            93,000        $42,992,501           $32,792,942
 mail processing clerks29
 Consolidation:
 supervisors30                                      14,000            $6,139,409          $4,463,898
 Consolidation:
                                                    89,000        $33,887,695           $24,639,374
 mail processing clerks31
 Consolidation: maintenance                              6,000        $2,367,659          $1,721,499
 clerks32
 Total                                            202,000*        $85,387,264           $63,617,713
* Workhours calculated by multiplying number of positions by 2,000 workhours per staff year.

Notes:
   • Cost avoidance was based on FY 2004 workhours and calculated using the workhour
       reduction multiplied by the fully loaded labor rate.
   • Labor cost was escalated at 3.1 percent.
   • Net present value was calculated using the discount rate of 5 percent.
   • Fully loaded labor rates are based on the Postal Service’s FY 2005 published rates.
   • Labor cost escalation was based on the Postal Service’s FY 2005 published Decision
       Analysis Factors.

Funds Put to Better Use: Funds that can be used more efficiently by implementing
recommended actions.




29
   Pay Level 5.
30
   Pay Level 17.
31
   Pay Level 5, including two in-plant support clerks.
32
   Pay Level 6.




                                                             19
Efficiency Review of the Canton, Ohio,                                                                         NO-AR-05-013
 Processing and Distribution Facility



                                                                      APPENDIX F

                                                 FY 2003 AKRON P&DC AND CANTON P&DF
                                                       MAIL PROCESSING CAPACITY




                                 1,500,000

                                                          1,200,459
          Total Pieces Handled




                                                                           579,240
                                 1,000,000



                                                                                 660,596


                                   500,000                                                 284,056




                                                                                                         Additional Mail They Could Work
                                             0


                                                  Akron                                      Mail They Work

                                                                      Canton




                                    Source: BPI Web page

                                    Note: The Akron P&DC has the capacity to process the Canton P&DF’s outgoing
                                    mail operations, which total over 251 million pieces annually.




                                                                      20
Efficiency Review of the Canton, Ohio,                                                                        NO-AR-05-013
 Processing and Distribution Facility




                                                                      APPENDIX G

                                               CANTON P&DF AND AKRON P&DC FHP

                                              (For the 8-Week Period Saturday, October 2, 2004 -
                                                          Friday, November 26, 2004)


                      1,200.00




                      1,000.00




                       800.00
   FHP per workhour




                       600.00




                       400.00




                       200.00




                         0.00
                                   Saturday     Sunday       Monday        Tuesday    Wednesday   Thursday      Friday

                                                                      Akron          Canton




                                 Source: Web Management Operating Data System (Web MODS)

                                 Note: A FHP is a letter, flat, or parcel that receives its initial distribution in a
                                 Postal Service facility.




                                                                      21
Efficiency Review of the Canton, Ohio,                                                                                                                                                                                                                                                                                   NO-AR-05-013
 Processing and Distribution Facility




                                                                                                                                                                     APPENDIX H

                                                                                                                 FYS 2003 AND 2004 AKRON P&DC
                                                                                                                          STANDBY TIME

                            1000


                            900


                            800


                            700
  Operation 340 workhours




                            600


                            500


                            400


                            300


                            200


                            100


                              0
                                                                                                                              May FY2003




                                                                                                                                                                                                                                                                                               May FY2004
                                                Nov FY2003




                                                                                                    Mar FY2003




                                                                                                                                                                                                                 Nov FY2004




                                                                                                                                                                                                                                                                     Mar FY2004
                                   Oct FY2003




                                                             Dec FY2003


                                                                          Jan FY2003


                                                                                       Feb FY2003




                                                                                                                 Apr FY2003




                                                                                                                                           Jun FY2003


                                                                                                                                                        Jul FY2003


                                                                                                                                                                     Aug FY2003


                                                                                                                                                                                       Sep FY2003


                                                                                                                                                                                                    Oct FY2004




                                                                                                                                                                                                                              Dec FY2004


                                                                                                                                                                                                                                           Jan FY2004


                                                                                                                                                                                                                                                        Feb FY2004




                                                                                                                                                                                                                                                                                  Apr FY2004




                                                                                                                                                                                                                                                                                                            Jun FY2004


                                                                                                                                                                                                                                                                                                                          Jul FY2004


                                                                                                                                                                                                                                                                                                                                       Aug FY2004


Source: Web Enterprise Information System (WebEIS)                                                                                                                                                                                                                                                                                                  Sep FY2004



Note: Handbook M-32 states that standby time is used for personnel in mail processing,
customer services, and delivery services who cannot be gainfully employed.




                                                                                                                                                                                  22
Efficiency Review of the Canton, Ohio,                                                                                                                                                                                                                                                                                                                                                                                                   NO-AR-05-013
 Processing and Distribution Facility




                                                                                                                                                                                                                                                                APPENDIX I

                                                                                                                   STEUBENVILLE, OHIO, MAIN POST OFFICE
                                                                                                                OVERNIGHT FIRST-CLASS MAIL SERVICE SCORES



                                         120



                                         100
    Percent On Time Overnight Delivery




                                         80

                                                                                                                                                       Date of Steubenville outgoing mail consolidation into Youngstown
                                                                                                                                                       was March 1, 2004
                                         60



                                         40



                                         20



                                          0
                                                                                                                                                                    Jul FY2003

                                                                                                                                                                                 Aug FY2003




                                                                                                                                                                                                                                                                                                                                 Jul FY2004

                                                                                                                                                                                                                                                                                                                                              Aug FY2004
                                                                                                   Feb FY2003



                                                                                                                             Apr FY2003

                                                                                                                                          May FY2003

                                                                                                                                                       Jun FY2003




                                                                                                                                                                                              Sep FY2003




                                                                                                                                                                                                                                                                Feb FY2004



                                                                                                                                                                                                                                                                                          Apr FY2004

                                                                                                                                                                                                                                                                                                       May FY2004

                                                                                                                                                                                                                                                                                                                    Jun FY2004




                                                                                                                                                                                                                                                                                                                                                           Sep FY2004




                                                                                                                                                                                                                                                                                                                                                                                                                            Feb FY2005



                                                                                                                                                                                                                                                                                                                                                                                                                                                      Apr FY2005

                                                                                                                                                                                                                                                                                                                                                                                                                                                                   May FY2005

                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Jun FY2005
                                               Oct FY2003

                                                            Nov FY2003



                                                                                      Jan FY2003



                                                                                                                Mar FY2003




                                                                                                                                                                                                           Oct FY2004

                                                                                                                                                                                                                        Nov FY2004



                                                                                                                                                                                                                                                   Jan FY2004



                                                                                                                                                                                                                                                                             Mar FY2004




                                                                                                                                                                                                                                                                                                                                                                        Oct FY2005

                                                                                                                                                                                                                                                                                                                                                                                     Nov FY2005



                                                                                                                                                                                                                                                                                                                                                                                                               Jan FY2005



                                                                                                                                                                                                                                                                                                                                                                                                                                         Mar FY2005
                                                                         Dec FY2003




                                                                                                                                                                                                                                     Dec FY2004




                                                                                                                                                                                                                                                                                                                                                                                                  Dec FY2005




                                                                                                                                                                                                                                                  Steubenville, OH



Source: Origin Destination Information System
Note: Percentage per month recorded in the Origin Destination Information System that met
overnight delivery standards.

.




                                                                                                                                                                                                                                          23
Efficiency Review of the Canton, Ohio,                                                   NO-AR-05-013
 Processing and Distribution Facility




                                                                           APPENDIX J

                                            YOUNGSTOWN, OHIO, P&DC PLANET CODE** SCANS
                                           (For the Periods May 4 - June 4, 2004, and June 14 - July 13, 2004)


                                                                                                  Total
                                         Facility             ZIPCode            Score                          On Time         Failed
                                                                                                 Pieces

                           Steubenville, Ohio                    439            98.98%             490             485              5
                           Youngstown SCF*                        444           98.77%              81              80              1
                           Youngstown, Ohio                       445           99.75%             805             803              2
                                                               TOTAL            99.42%            1,376           1,368             8
                           * Sectional Center Facility

Source: Planet Code Scans (Internal Postal Service Testing)

**PLANET CODES are used to track letter-sized mailpieces electronically.

Note: This chart shows that delivery service scores exceeded the national service goal of 95 percent for the Youngstown, Ohio, P&DC and
Steubenville, Ohio, Main Post Office service area after consolidating Steubenville’s outbound mail on March 1, 2004.




                                                                      24
Efficiency Review of the Canton, Ohio,                                                   NO-AR-05-013
 Processing and Distribution Facility




                                                                APPENDIX K

                                             FY 2004 PRODUCTIVITY FOR CUSTOMER SERVICE
                                                       DISTRICTS WITH SIX PLANTS

                      2500


                      2000
   TPH Per WORKHOUR




                      1500


                      1000


                      500


                        0
                             Northern Ohio    Greater    Sacramento    Central Illinois North Florida   Tennessee   Van Nuys
                                              Michigan    California                                                California


Source: BPI Web page
Note: Productivity is calculated by dividing TPH by total workhours




                                                                        25
Efficiency Review of the Canton, Ohio,             NO-AR-05-013
 Processing and Distribution Facility



               APPENDIX L. MANAGEMENT’S COMMENTS




                                         26
Efficiency Review of the Canton, Ohio,        NO-AR-05-013
 Processing and Distribution Facility




                                         27
